SAR COVERS 1 AND 4.qxd   4/22/11   3:34 PM   Page 1
This page intentionally left blank.
                             SEMIANNUAL
                             REPORT TO CONGRESS




Table of Contents
Message from the Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . 2

Key Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

Implementation of the American Recovery and
Reinvestment Act of 2009 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

Other Significant Audits, Inspections, and Reviews . . . . . . . . . . . . 13

Investigative Outcomes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

Positive Outcomes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
      Highlights Based on Office of Inspector General Work . . . . . . . . . . . . . . . . 29
      Congressional Responses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
      Legislative and Regulatory Reviews . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
      Hotline System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
      Qui Tams . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
      Management Referral System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

Appendix 1 – Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
      Recovery Act and Recovery Act-Related Reports Issued . . . . . . . . . . . . . . . . . 33
      Other Audit Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
      Inspection Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

Appendix 2 - Tables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38
      Audit Reports with Recommendations for Better Use of Funds . . . . . . . . . . . 38
      Audit and Inspection Reports with Questioned Costs . . . . . . . . . . . . . . . . . . 39
      Reports Lacking Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40
      Prior Significant Recommendations Not Implemented . . . . . . . . . . . . . . . . . 40
      Summary of Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41
      Summary of Investigative Activities – Hotline Activity . . . . . . . . . . . . . . . . . 42
      Summary of Recovery Act Section 1553 Retaliation Complaints . . . . . . . . . . 42
      Peer Reviews . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43




                                                OCTOBER 1, 2010 – MARCH 31, 2011                                 1
                                              SEMIANNUAL
                                             REPORT TO CONGRESS




Message from the Inspector General

                                         The Department of Energy’s Office of Inspector General is pleased
                                         to submit its Semiannual Report to Congress for the period ending
                                         March 31, 2011. This report highlights key accomplishments of
                                         the Office of Inspector General particularly pertaining to our efforts
                                         to work with management to ensure the efficiency and effectiveness
                                         of Department of Energy (Department) operations.

                                           During this reporting period, a significant portion of our oversight
                                           efforts centered on the Department’s continuing efforts to meet the
                                           mandates of the American Recovery and Reinvestment Act of 2009
                                           (Recovery Act). Under the Recovery Act, the Department received
                                           over $35 billion for various science, energy and environmental
                                           programs and initiatives. In recognition of the need for effective
oversight to protect taxpayer interests, the Recovery Act mandated an aggressive oversight role for the
Inspector General community, specifically including this office. In this regard, we established proactive
efforts to evaluate internal control structures of Recovery Act programs; worked to ensure that such
programs were periodically reviewed to determine if they were meeting established objectives; developed
strategies for preventing and detecting possible unlawful acts associated with Recovery Act funds; and we
implemented special programs called for in the Recovery Act to protect whistleblowers who feel they have
been retaliated against for disclosures of alleged fraud, waste, or abuse. For the 6 month period ending
March 2011, the Office of Inspector General issued 13 reports associated with the
Department’s Recovery Act responsibilities. These reviews are summarized in the
body of this document.

Although our primary focus has been Recovery Act-related work, the Office
of Inspector General continues its efforts in other vital Department sectors,
including environmental remediation, stockpile stewardship, worker and
community safety, cyber security and various aspects of contract and program
management.

Much work has been done, but more remains and we look forward to working with
program officials and Department management in our mutual effort to ensure that the interests of
U.S. taxpayers are a priority as the Department undertakes its critically important mission.




                                                       Gregory H. Friedman
                                                       Inspector General



 2     OFFICE OF INSPECTOR GENERAL
                                   SEMIANNUAL
                                   REPORT TO CONGRESS




              Key Accomplishments
              For the Period of October 1, 2010 – March 31, 2011

Total Reports Issued:
      Recovery Act Reports                                                        13
      Audit Reports                                                               24
      Inspection Reports (includes non-public reports)                             3

Funds Put to Better Use                                              $ 15.8 million

Questioned Costs                                                     $ 21.8 million

Dollars Recovered (Fines, Settlements, and Recoveries)               $ 54.8 million

Criminal Convictions                                                              14

Suspensions and Debarments                                                        45

Potential Recoveries from 15 Open Qui Tam Investigations            $226.8 million

Civil and Administrative Actions                                                  63

Hotline Complaints and Inquiries
      Received                                                               2,749

Recovery Act Whistleblower Complaints and Inquiries Received                       9




                                               OCTOBER 1, 2010 – MARCH 31, 2011    3
                                            SEMIANNUAL
                                            REPORT TO CONGRESS



                     Implementation of the American
                     Recovery and Reinvestment
                     Act of 2009
 Reports

The Department’s Loan Guarantee Program for
Clean Energy Technologies

The goal of the Department’s Loan Guarantee Program (Program), as defined in the Energy Policy Act of
2005, is to provide Federal support, in the form of loan guarantees, to spur commercial investments in
clean energy projects that use innovative technologies. The Recovery Act amended the Energy Policy Act of
2005 and temporarily expanded the Program by providing loan guarantees for renewable energy systems,
electric transmission systems and leading edge biofuels projects. As of December 2010, the Department’s
Program for Clean Energy Technologies had issued over $3.9 billion in loan guarantees to 8 recipients and
had conditional commitments for an additional $12 billion in loan guarantees.

We found that the Program could not always readily demonstrate, through systematically organized
records, including contemporaneous notes, how it resolved or mitigated relevant risks prior to granting
loan guarantees.

Program officials acknowledged the need to develop and implement a sound records management system to
enhance the transparency of the decision-making process and to update loan related policies and
procedures. We considered management’s planned actions with regard to our recommendations to be
generally responsive. (DOE/IG-0849)


Selected Aspects of the Commonwealth of Pennsylvania’s Efforts to
Implement the Recovery Act Weatherization Assistance Program

As part of the Recovery Act, the Weatherization Assistance Program was implemented to reduce energy
consumption for low-income households through energy efficient upgrades. The Department awarded a
3-year Weatherization Assistance Program grant of $252 million to the Commonwealth of Pennsylvania
(Pennsylvania). Pennsylvania’s Department of Community and Economic Development (DCED)
administers the Recovery Act grant through 43 local agencies. These agencies are responsible for
determining applicant eligibility, assessing and weatherizing homes, and conducting inspections.
Pennsylvania plans to use its funding to weatherize about 34,000 units over the life of the grant, and to
prioritize weatherization services for low income, high energy users.




 4     OFFICE OF INSPECTOR GENERAL
                                              SEMIANNUAL
                                             REPORT TO CONGRESS




Our audit identified several opportunities to increase the likelihood that Pennsylvania’s Weatherization
Assistance Program will satisfy its objectives and fully comply with Federal requirements. Specifically, we
found that Pennsylvania had not always:
   ■   Ensured that high energy users were given priority over lower energy users as called for in its
       Recovery Act State Plan approved by the Department on August 25, 2009; and,
   ■   Limited advances to its local agencies to amounts needed for immediate cash needs or ensured that
       advances were deposited in interest bearing accounts. In fact, the 43 local agencies involved in
       Pennsylvania’s program had not expended $15.8 million of the $42.7 million in advances that they
       received from DCED for periods ranging from 3 to 6 months. Local agencies, in some cases, also
       had not deposited advances in interest bearing accounts.

The Department’s Office of Energy Efficiency and Renewable Energy (EERE) provided a response to our
report that expressed agreement with our recommendations and provided planned and ongoing actions to
address the issues identified. (OAS-RA-11-02)


The Department’s Geothermal Technologies Program
under the Recovery Act

Under the Recovery Act, the Department’s Geothermal Technologies Program received $400 million to
promote the exploration and development of new geothermal fields and innovative research into advanced
geothermal technologies. Recovery Act funding supports geothermal projects undertaken by private
industry, academic institutions, tribal entities, local governments, and the Department’s National
Laboratories. The projects, covering activities in 39 states, represent a significant expansion of the
U.S. geothermal industry and are intended to create or save thousands of jobs in drilling, exploration,
construction, and operation of geothermal power facilities and manufacturing of ground source heat
pump equipment.

Our review found that, in general, the Department followed established procedures for the solicitation,
merit review, selection and award of geothermal projects. However, we identified weaknesses in project
administration that need to be addressed to ensure that the Government’s interests are protected, that
financial assistance recipients fully comply with Federal requirements, and the goals of the Recovery Act are
met. We also questioned $110,000 in award payments that need to be resolved by the Department’s
contracting officer.

The Department concurred with the findings and recommendations contained in our audit report.
Management stated that it had either completed or had ongoing actions to address the issues we identified.
(OAS-RA-11-05)




             Public reports are available in full text on our website at www.ig.energy.gov



                                                           OCTOBER 1, 2010 – MARCH 31, 2011               5
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




The State of Illinois Weatherization Assistance Program

The Department awarded the State of Illinois a 3-year Weatherization Assistance Program grant of
$242 million to weatherize about 27,000 homes. The State of Illinois is expected to provide its largest local
agency, the Community Economic Development Association of Cook County, Inc. (CEDA), approximately
$91 million over 3 years to weatherize an estimated 12,500 homes, or almost half of all the homes expected
to be completed by the Illinois Program.

Our testing revealed that the State of Illinois and CEDA’s Weatherization Program experienced substandard
performance in the areas of workmanship, initial home assessments, and contractors billing for labor costs
not incurred and materials not installed. CEDA also had not always ensured that contractors’ material costs
were reasonable, a practice that could ultimately reduce the number of homes of low income families that
can be weatherized with available Recovery Act monies. These program execution issues resulted from a
combination of problems including internal control weaknesses, inadequate final inspections, ineffective
follow-up on inspection issues, and insufficient training.

To address the significant deficiencies we observed during our audit, we made recommendations to the
Assistant Secretary for EERE to take action to ensure that the State of Illinois and CEDA address program
weaknesses. (OAS-RA-11-01)


Management of the Plutonium Finishing Plant Closure Project

The Department’s Richland Operations Office (Richland) awarded a contract to CH2M HILL Plateau
Remediation Company (CHPRC) to remediate the Hanford Site’s Central Plateau. Part of the contract’s
scope includes completion of the Plutonium Finishing Plant (PFP) Closure Project – a major
decontamination and demolition project of an industrial complex consisting of more than 60 buildings.
In April 2009, Richland provided $330 million of the $1.6 billion it received under the Recovery Act to
CHPRC to apply towards the PFP Closure Project for FYs 2009-2011.

While the Department met several of the Office of Environmental Management’s Recovery Act goals, such
as creating jobs and accurately tracking and reporting costs, we identified several risks to maintaining the
PFP Closure Project on schedule and within budget. Specifically, we found that:
   ■   CHPRC is significantly behind schedule in decontaminating glove boxes, a key activity on the
       critical path to completing the project on time. As of August 31, 2010, or nearly 2 years into its
       contract, CHPRC had decontaminated 88 of the 174 glove boxes (51 percent), with only about
       12 months left to decontaminate, remove, and ship the remaining 86 glove boxes from PFP;
   ■   The PFP Closure Project was more than $11 million behind schedule in completing the scope of its
       Recovery Act work as of September 30, 2010; and,




 6      OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




   ■   Subsequent to receiving Recovery Act funds, CHPRC established a baseline for the PFP Closure
       Project for a total project cost of approximately $718 million, an increase of about $189 million or
       36 percent over the adjusted contract cost.

To help ensure the project stays on track, we suggested that the Department expeditiously develop and
implement alternative plans, as necessary, to mitigate the effects of any schedule delays at the PFP Closure
Project. (OAS-RA-L-11-01)


The Department of Energy’s Weatherization Assistance Program
under the Recovery Act for the City of Phoenix –
Agreed Upon Procedures

The State of Arizona received $57 million in Weatherization Assistance Program Recovery Act grant
funding, of which $7.2 million was allocated to the City of Phoenix. The Arizona Department of
Commerce was responsible for administering Weatherization grants, including sub-grants provided to the
City of Phoenix.

The review identified opportunities for the City of Phoenix to improve its administration of Recovery Act
funds made available by the Department’s Weatherization Assistance Program. In particular, the City of
Phoenix had not always ensured that costs charged for the weatherization of homes were reasonable.
Specifically, the City of Phoenix had not:
   ■   Procured contractor weatherization services through a competitive process as required by Federal
       regulations, nor had it performed cost analyses in the selection of contractors to ensure price
       competiveness;
   ■   Obtained or reviewed supporting documentation for contractors’ invoices totaling $275,375 for
       30 homes/units to ensure that materials and labor costs incurred on projects were associated with
       allowable weatherization services and materials; and,
   ■   Ensured that employees charging payroll costs to the Weatherization Program Recovery Act grants
       were actually providing such services to the Program. In fact, the City of Phoenix charged payroll
       costs to the Program totaling $73,082 for 3 full time employees even though payroll information to
       support such costs did not exist.

As a result of weaknesses in the City of Phoenix’s administration of Weatherization Assistance Program, we
questioned $348,457 in costs incurred. The report made several recommendations to improve the
administration of the Weatherization Assistance Program grant and also recommended that the Contracting
Officer resolve identified questioned costs.




             Public reports are available in full text on our website at www.ig.energy.gov



                                                          OCTOBER 1, 2010 – MARCH 31, 2011                 7
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




EERE management agreed to address the issues in this report as part of its ongoing monitoring of the State
of Arizona’s Weatherization Assistance Program and to promptly resolve all questioned costs identified. To
its credit, the Arizona Department of Commerce stated that it had engaged the City of Phoenix in resolving
questioned costs. For its part, the City of Phoenix reported that it had implemented a new Recovery Act
Weatherization program that used a competitive low bid process to ensure cost reasonableness and full and
open competition. The City of Phoenix said that it was engaged in finding an alternative method to more
accurately support its personnel costs charged to Recovery Act funding. (OAS-RA-11-03)


The Department of Energy’s Weatherization Assistance Program
under the Recovery Act for the Capital Area Community Action
Agency – Agreed Upon Procedures

The State of Florida received $176 million in Weatherization Assistance Recovery Act grant funding, of
which $7.5 million was allocated to the Capital Area Community Action Agency. The Florida Department
of Community Affairs was responsible for administering Weatherization grants, including sub-grants
provided to the Capital Area.

The review identified opportunities for the State and Capital Area Community Action Agency to improve
their administration of Recovery Act funds. In particular, the review found that the State’s guidelines for
verifying that homes had not been weatherized after September 30, 1994, were not consistent with
Department regulations. Consequently, there was a risk that homes would be improperly re-weatherized.

The State of Florida and the Capital Area Community Action Agency provided responses that expressed
agreement with our report’s recommendations and provided planned and ongoing actions to address the
issues identified. EERE management agreed to address the issues in this report as part of their ongoing
monitoring of the State of Florida’s Weatherization Assistance. (OAS-RA-11-04)


Environmental Cleanup Projects Funded by the Recovery Act at the
Y-12 National Security Complex

The Department’s Oak Ridge National Laboratory’s (Oak Ridge) Office of Environmental Management
received $216 million of Recovery Act funds to perform environmental cleanup activities at the National
Nuclear Security Administration’s (NNSA) Y-12 National Security Complex (Y-12). These funds were
allocated to seven projects addressing material disposition, deactivation and demolition, and remediation.

Our audit did not reveal significant project management problems with efforts at Y-12 which had been
funded under the Recovery Act. For the specific projects reviewed, we noted that the projects were ahead
of schedule and under budget. In addition, Y-12 was in compliance with Recovery Act requirements for
segregation of funds and reporting guidelines. However, we did identify instances where required terms
were not incorporated into subcontracts funded by the Recovery Act. For example:



 8     OFFICE OF INSPECTOR GENERAL
                                              SEMIANNUAL
                                              REPORT TO CONGRESS




    ■   A clause mandating compliance with several Recovery Act requirements lacked certain important
        operating provisions and/or had not always been properly flowed down to project subcontracts; and,
    ■   A control designed to prevent the employment of illegal aliens by requiring that employers verify
        employment eligibility with the Department of Homeland Security had been omitted from all
        Recovery Act subcontracts.

These clauses were designed to ensure that the Department enforced important Recovery Act requirements
and other contract requirements. Perhaps most importantly, their use would have further reduced the risk
of illegal aliens gaining access to Y-12. After we notified them of the issues, Y-12 officials reported that they
had taken actions to mitigate these concerns. The mitigating actions initiated by Y-12 should, if
successfully implemented, resolve the concerns discussed in this report. However, we suggest that the Y-12
Site Office provide continued oversight and monitoring of these issues. (OAS-RA-L-11-02)


The Department’s Infrastructure Modernization Projects
under the Recovery Act

The Recovery Act provided just over $35 billion for the Department, including $198 million to be used by
the Office of Science (Science) for infrastructure modernization initiatives. Science officials stated that
modernization was needed to many Department laboratories, offices, and other facilities due to their age.

Our review of nine projects at Oak Ridge and the Lawrence Berkeley National Laboratory (Berkeley) found
that both sites generally employed required project management practices and the projects were meeting
their cost and schedule baseline estimates. The projects also generally complied with various Recovery Act
requirements and properly reported the jobs created. However, we did note that 1 Berkeley project planned
to use $2.6 million in Recovery Act funds to purchase a switching station for which there was no current
demand and which would not be placed into service for some time.

To help derive the greatest benefit from Recovery Act expenditures for infrastructure modernization, we
suggested that the Berkeley Site Office thoroughly review all project plans to ensure that Berkeley is using
Recovery Act funds to upgrade equipment, laboratory space, and office space that offers the maximum
benefit to the Department. (OAS-RA-L-11-04)




              Public reports are available in full text on our website at www.ig.energy.gov



                                                            OCTOBER 1, 2010 – MARCH 31, 2011                9
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




Recovery Act Funded Projects at the SLAC National
Accelerator Laboratory

The Department’s Office of Science received approximately $1.6 billion through the Recovery Act which it
used to invest in science projects, including approximately $97 million for major construction, laboratory
infrastructure, and research efforts at the SLAC National Accelerator Laboratory (SLAC) located in
Menlo Park, California. These funds were allocated to eight projects to improve mission readiness and
science capability.

Our review of 3 SLAC Recovery Act funded projects, accounting for over $47 million, did not reveal
problems with schedule or budget. In addition, for the specific SLAC projects we tested, we did not
identify material issues with compliance of Recovery Act requirements, including the segregation of funds.
We noted, however, that in some instances SLAC did not always comply with its internal requirements
designed to ensure that subcontractor invoices and purchase requisitions for Recovery Act related work were
adequately reviewed and properly classified.

After discussing our findings with SLAC management, SLAC initiated actions intended to mitigate these
concerns. These mitigating actions, if successfully implemented, should address the concerns discussed in
the report. However, we suggested that the SLAC Site Office provide continued oversight and monitoring
of the issues identified in this report. (OAS-RA-L-11-05)


The Department’s Recovery Act – Massachusetts State
Energy Program

The Department’s State Energy Program (SEP) provides grants to states, territories, and the District of
Columbia (states) to support their energy priorities. The SEP allows the states to implement energy
efficiency and renewable energy projects that meet their unique energy needs and emphasizes the state’s role
as the administrator for the program. The Commonwealth of Massachusetts’ Department of Energy
Resources (Massachusetts) was allocated $54.9 million in SEP funds under the Recovery Act.

Our audit found that Massachusetts had, for the most part, implemented processes and controls necessary
to manage its SEP Recovery Act funding. We found, however, that Massachusetts, although it had draft
plans, had not finalized its Recovery Act sub-recipient oversight plans and procedures. We also noted that
Massachusetts’ obligations, as defined and subsequently clarified by the Department, were overstated.

Management concurred with our recommendations and stated that it will continue to closely oversee the
work carried out under Massachusetts’ SEP, including regular on-site visits, frequent communication and
reviews of all reports. (OAS-RA-11-06)




 10    OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




Management of the Tank Farm Recovery Act Infrastructure
Upgrades Project

As part of the Recovery Act the Department awarded Washington River Protection Solutions (WRPS)
approximately $324 million to accelerate completion of infrastructure upgrades for the Hanford Site’s tank
farms during the fiscal year 2009-2011 timeframe. These funds were applied to the existing contract with
WRPS to manage the operations and construction activities necessary to store, retrieve, treat and dispose of
the 53 million gallons of Hanford tank waste.

Our review found that the Department selected projects for Recovery Act funding that supported the goal
of upgrading the tank farm infrastructure and waste feed delivery systems. In addition, the Department
was on schedule to complete the Recovery Act upgrades by September 30, 2011, as planned, and at less
than the estimated cost. Furthermore, as a result, additional projects have been added through contract
modification to utilize the remaining Recovery Act funds.

Although the Recovery Act funded work was being delivered on schedule and under budget, we were
unable to verify that the use of these funds actually accelerated overall project completion. Because the level
of detail necessary to trace project costs as needed for the Recovery Act was not foreseen when the original
contract was awarded and cannot be objectively recreated at this time, we did not make any specific
suggestions or recommendations to address this matter. (OAS-RA-L-11-03)


Management Alert Issued to Department on Recovery Act Appliance
Rebate Fraud Investigation

The OIG released a Management Alert regarding a potential weakness in the Department’s Energy Efficient
Appliance Rebate Program (Rebate Program). The Alert served to notify the Department that the Rebate
Program in the State of Georgia contains weaknesses that prevent officials from identifying ineligible
appliance rebates and verifying that recipients replaced older inefficient appliances with ENERGY STAR®
qualified appliances. (INV-RA-11-01)




                                                           OCTOBER 1, 2010 – MARCH 31, 2011             11
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




 Whistleblower Retaliation
Section 1553 of the Recovery Act extends whistleblower protection to employees who reasonably believe
they are being retaliated against for reporting misuse of Recovery Act funds received by their non-Federal
employers. Specifically, an employee of any non-Federal employer, such as a private company or a state or
local agency, who reports waste, fraud or abuse connected to the use of Recovery Act funds may not be
discharged, demoted or otherwise discriminated against because of his or her disclosure. Unless the
Inspector General determines that the complaint is frivolous, does not relate to covered funds, or another
Federal or State judicial or administrative proceeding has previously been invoked to resolve such
complaint, the Inspector General shall investigate the complaint and issue a report of findings within
180 days.

During this reporting period, the Office of Inspector General (OIG) received nine Recovery Act
Whistleblower Retaliation complaints. The OIG carried over eight complaints from prior reporting
periods. During the reporting period, the OIG issued one report of findings. The OIG dismissed two
complaints, one when a complainant either elected to file his or her complaint in another forum, and one
when a complainant was withdrawn or withdrew his or her complaint. The OIG dismissed five complaints
after determining they were not related to covered funds. Section 1553 also requires the OIG to note in its
Semiannual Report, the number of Recovery Act whistleblower investigations that have received extensions
during the reporting period. Six complaints received extensions during this reporting period.




 12    OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




                        Other Significant Audits,
                        Inspections, and Reviews
Management Challenges                                   The Department of Energy’s
                                                        K Basins Sludge Treatment
The OIG identifies annually what is considers to
                                                        Project at the Hanford Site
be the most significant management challenges
facing the Department. This effort highlights
                                                        The Department’s Richland office is required
those programs and operations that are, in our
                                                        to retrieve, treat and package for disposal an
judgment, the most difficult to manage as well as
                                                        estimated 28.5 cubic meters of radioactive
those with the most significant demonstrated
                                                        sludge from the Hanford Site K Basin. The
performance problems. With these considerations
                                                        Department’s former prime contractor for the
in mind and given the persistent nature of the
                                                        K Basins Sludge Treatment Project, Fluor
previously identified management challenges, the
                                                        Hanford, Inc. (Fluor), subcontracted with British
OIG’s management challenge list for Fiscal Year
                                                        Nuclear Group America (BNGA), to design and
(FY) 2011 includes the following:
                                                        fabricate a modular system known as the
   ■   Contract and Financial Assistance                Contractor’s Stabilization and Packaging System
       Award Management                                 (CSAPS). This system was intended to retrieve,
   ■
                                                        oxidize, and package the sludge to meet the
       Cyber Security
                                                        Department’s Waste Isolation Pilot Plant waste
   ■   Energy Supply                                    acceptance criteria for disposal.
   ■   Environmental Cleanup
                                                        Our review disclosed that the sludge treatment
   ■   Human Capital Management                         phase of the Spent Nuclear Fuel project had not
   ■
                                                        been effectively managed. Specifically, the
       Safeguards and Security
                                                        Department did not require Fluor and its sub-
   ■   Stockpile Stewardship                            contractor to implement key project management
                                                        principles, the lack of which ultimately lead to
In addition, we have designated a “watch list”,         abandonment of the planned approach after
consisting of issues that do not currently meet our     3 years of effort and the expenditure of about
threshold of being classified as management             $43 million for the CSAPS. We also found that
challenges, but warrant continued attention by          Fluor did not follow Federal Acquisition
Department officials. For FY 2011, the watch list       Regulations when it paid a $1 million fee to
includes: Infrastructure Modernization, Nuclear         BNGA that was not tied to any performance
Waste Disposal, and Worker and Community                objectives but appeared to be for contract closeout.
Safety. (DOE/IG-0844)                                   The unsuccessful attempt to dispose of the K
                                                        Basin sludge was due to inadequate management
                                                        oversight of the project. Because of its focus on
                                                        meeting schedule, Richland did not ensure that
                                                        contractors followed requirements and best

             Public reports are available in full text on our website at www.ig.energy.gov



                                                         OCTOBER 1, 2010 – MARCH 31, 2011            13
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




business practices that would have mitigated            manner. We found that these problems existed, in
project risk and helped ensure that substantial cost    part, because the Commission had only limited
and time were not wasted in constructing an             authority to ensure adequate cyber security over
unacceptable nuclear facility. We made several          the bulk electric system. However, even in
recommendations designed to improve current and         situations where authority did exist, the
future management of Environmental                      Commission had not always acted to ensure that
Management projects. Management generally               cyber security standards were adequate.
concurred with our recommendations.
(DOE/IG-0848)                                           Without improvements, the Commission may not
                                                        be able to provide adequate oversight to ensure
                                                        that cyber security vulnerabilities within the power
Federal Energy Regulatory                               grid are identified and mitigated. As such, we
                                                        made several recommendations that, if fully
Commission’s Monitoring of
                                                        implemented, should help improve the overall
Power Grid Cyber Security                               effectiveness of the Commission’s ability to
                                                        monitor security over the Nation’s power grid.
Congress passed the Energy Policy Act of 2005,          Management concurred with three of the
giving the Federal Energy Regulatory Commission         recommendations and concurred with the intent
(Commission) jurisdiction to conduct oversight of       of the remaining two recommendations.
the bulk power system, commonly referred to as          (DOE/IG-0846)
the bulk electric system or power grid, including
the approval of mandatory cyber security reliability
standards. The North American Electric                  Improvements Needed in the
Reliability Corporation (NERC) developed
                                                        Department’s Emergency
Critical Infrastructure Protection (CIP) cyber
security reliability standards which were approved      Preparedness and Continuity of
by the Commission in January 2008. Security             Operations Planning
over the Nation’s power grid remains a critical area
of concern. Recent testimony before Congress            The Department’s diverse mission is directly
disclosed various issues, including the existence of    related to helping resolve many of the energy,
significant vulnerabilities in the power grid’s         environmental and nuclear security challenges that
infrastructure, and many utilities that were not in     face the Nation. As a consequence, the
compliance with the standards.                          Department’s operations involve dangerous
                                                        substances, such as nuclear and hazardous
Although the Commission had taken steps to              materials. In this context, the Department must
ensure CIP cyber security standards were                ensure that it can quickly and effectively respond
developed and approved, our testing revealed that       to emergencies at its facilities and is prepared to
such standards did not always include controls          maintain or resume mission-related work following
commonly recommended for protecting critical            an emergency. A previously issued OIG report on
information systems. In addition, the CIP               The Department’s Continuity Planning and
standards implementation approach and schedule          Emergency Preparedness (DOE/IG-0657) found
approved by the Commission was not adequate to          that the Department had not implemented
ensure that systems-related risks to the Nation’s       effective emergency preparedness and continuity of
power grid were mitigated or addressed in a timely      operations (COOP) programs.



 14    OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                            REPORT TO CONGRESS




We found that, despite various corrective actions,     the disruption, preparation and mitigation of
the Department had not fully resolved problems in      damaged energy systems and components.
emergency preparedness planning. For instance, at
the four sites included in our review, we found        We determined that the Department had
that sites had not completed all required              completed a number of actions designed to
emergency planning, did not always share lessons       prepare it to implement an effective response to
learned and track performance metrics to augment       incidents and disasters. Specifically, Departmental
corrective action processes, and that three of four    personnel had participated in major coordination
sites were not always adequately resolving             efforts, made readiness assessments in response to
emergency management issues. We also observed          Hurricane efforts, implemented short and long-
that although the Department issued its updated,       term incident management and recovery efforts,
overarching COOP plan subsequent to our review,        and maintained financial accountability. We did,
55 percent of Department elements had not              however, identify an opportunity to improve
submitted their individual, updated plans.             preparedness by ensuring that responders receive
Furthermore, with regard to the submitted plans,       required training prior to participating in exercises
many had not included full consideration of all        or actual emergency situations. Specifically, we
planning requirements.                                 determined that a number of coordinators and
                                                       volunteers may not have received required training
We made several recommendations intended to            prior to deployments.
promote effective and comprehensive emergency
management and COOP programs throughout                We made no formal recommendations to
the Department. The Department and NNSA                management since corrective actions were initiated
generally agreed with our recommendations and          to resolve the training issues we identified.
stated that they had already taken action or would     (DOE/IG-0847)
take action to address our recommendations.
(DOE/IG-0845)
                                                       Management of Controlled
                                                       Substances at Lawrence
The Department’s Implementation
                                                       Livermore National Laboratory
of the "Energy Annex, Emergency
Support Function 12" to the                            As part of its national defense mission, the
National Response Framework                            Department’s Lawrence Livermore National
                                                       Laboratory (Livermore) actively engages in
As required by the National Response Framework,        scientific, engineering, and environmental research
the Department, in coordination with the               activities. Livermore maintains 42 controlled
Department of Homeland Security, plays an active       substances, including drugs such as black tar
role in responding to national-level disasters and     heroin, cocaine, phencyclidine and steroids under
emergencies. The Department is responsible for         three business activities registered to possess
serving as the focal point to assist Federal, state    controlled substances: Researcher for bio-medical
and local governments, and private industry with       research; Health Clinic for medical treatment of


             Public reports are available in full text on our website at www.ig.energy.gov



                                                        OCTOBER 1, 2010 – MARCH 31, 2011              15
                                               SEMIANNUAL
                                               REPORT TO CONGRESS




Livermore personnel; and, Analytical Lab for              in a fair and consistent manner. It was also alleged
forensic science work.                                    that alcohol abuse was a problem within OST and
                                                          that alcohol-related incidents involving current
During our inspection, we found that, with the            agents assigned to various locations and agent
exception of the Health Clinic, Livermore was not         candidates at the OST training facility in Fort
appropriately managing its controlled substances          Chaffee, Arkansas, were some of the biggest
in accordance with Federal regulations and                problems facing OST.
Department policy intended to prevent misuse or
misappropriation. Livermore’s inability to                During our inspection, we did not substantiate the
properly account for controlled substances in its         allegations that violations of the HRP occurred
possession occurred because officials did not             that were not reported, as required, or that the
devote adequate attention to developing and               HRP was administered in an unfair or inconsistent
maintaining program accountability.                       manner. However, we did substantiate specific
                                                          alcohol-related incidents within OST involving
To help ensure that the safeguards being developed        current agents and agent candidates.
are adequate, we made several recommendations
designed to improve the accountability over               We made several suggestions to improve the
controlled substances at Livermore. NNSA                  administration of the HRP and to assist with
management oncurred with the report                       opportunities for improving policies and
recommendations and agreed that there is a need           procedures related to alcohol use by OST
for a rigorous system of controls for managing the        agents, agent candidates and other personnel.
inventory of controlled substances.                       (INS-L-11-01)
(INS-O-11-01)

                                                          The Department’s Energy
Inspection of Allegations                                 Conservation Efforts
Relating to Irregularities in the
Human Reliability Program and                             The Energy Independence and Security Act of
                                                          2007 (EISA) requires Federal agencies to apply
Alcohol Abuse within the Office
                                                          energy efficiency measures to Federal buildings
of Secure Transportation                                  so that by FY 2015, each agency’s energy intensity
                                                          is reduced by 30 percent from the established
The Office of Secure Transportation (OST)                 baseline. If the Department achieves the
conducts transportation missions in support of            30 percent energy conservation requirement, its
national security, including the secure                   energy consumption would be reduced by nearly
transportation of nuclear weapons, weapon                 7 trillion BTUs, resulting in a savings of nearly
components and special nuclear material. We               $80 million annually. The Department’s
received a series of allegations concerning               approach to meeting its EISA requirement has
violations of the Human Reliability Program               been to rely, to the maximum extent possible,
(HRP) and alcohol abuse within the OST.                   on its individual sites obtaining third-party
Specifically, it was alleged that incidents involving     financing agreements, known as Energy Savings
violations of the HRP were not reported as                Performance Contracts (ESPCs), to fund energy
required, and that the HRP was not administered           conservation projects.



  16    OFFICE OF INSPECTOR GENERAL
                                              SEMIANNUAL
                                             REPORT TO CONGRESS




We found that the Department’s current approach         account for all funds advanced by the Department,
was not sufficient to permit it to achieve the EISA     to safeguard assets in its care, and to claim only
imposed energy conservation requirement. At the         allowable costs. During FYs 2007 and 2008,
time of our review, Department sites had                Sandia claimed costs totaling $3 billion.
cumulatively planned only enough conservation
measures projected to reduce the Department’s           We identified over $10 million in questioned
energy intensity by only 22 percent by FY 2015.         and unresolved costs claimed by Sandia during
In addition, we found that not all of the               FYs 2007 and 2008. In addition, we noted the
Department’s sites could successfully manage or         following other concerns which need to be
pursue ESPCs to meet the energy conservation            addressed to ensure that only allowable costs are
requirement. Specifically, we found that several        claimed by and reimbursed to Sandia:
sites had not pursued or implemented ESPCs
                                                           ■   Sandia incurred $3,405,908 in home office
because they were determined to be not
                                                               expenses in FYs 2007 and 2008 which we
economically viable. In the absence of ESPCs,
                                                               consider unresolved pending audit
Department sites had difficulty securing
                                                               completion and resolution;
appropriated funds to support their energy
conservation efforts.                                      ■   We noted that $1,995,544 of costs
                                                               incurred by Sandia as long as 10 years
In September 2010, the Department established                  ago and previously questioned by the
a Strategic Sustainability Performance Plan                    OIG had not been resolved. In addition,
(Sustainability Plan) as required by Executive                 home office expenses incurred during
Order 13514 on Federal Leadership in                           FYs 2000 through 2006 totaling
Environmental, Energy, and Economic Performance.               $9,601,236 were pending audit;
The strategies described in the Sustainability Plan,
                                                           ■   Sandia’s procurement function did not
if fully implemented, should advance the
                                                               effectively review invoices or monitor
resolution of the issues identified in this and our
                                                               contract performance periods to identify
previous reports, and help the Department meet
                                                               weaknesses that resulted in questioned costs
the EISA mandate. (OAS-L-11-02)
                                                               for 13 subcontractors; and,
                                                           ■   NNSA’s Field Chief Financial Officer
Questioned, Unresolved and                                     (CFO) has not signed the FY 2008
                                                               Statement of Costs Incurred and Claimed
Potentially Unallowable Costs
                                                               (SCIC), as required by the Department’s
Incurred by Sandia Corporation                                 Accounting Handbook. On January 14,
during Fiscal Years 2007                                       2010, the Office of Field Financial
and 2008                                                       Management issued a memorandum to the
                                                               Contracting Officer which stated that the
Since 1993, Sandia Corporation, a Lockheed                     FY 2008 SCIC was not approved by the
Martin company, has operated Sandia National                   Field CFO due to Sandia’s potential
Laboratories (Sandia) under contract with the                  noncompliance with Cost Accounting
Department. Sandia is required by its contract to              Standards.


             Public reports are available in full text on our website at www.ig.energy.gov



                                                         OCTOBER 1, 2010 – MARCH 31, 2011            17
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




Management generally agreed with the report             suggestions to address the issues identified in
and concurred with the recommendations.                 our report. Management concurred with our
Management’s response included planned                  recommendations and indicated that it had
corrective actions to be taken in response to our       initiated or already completed actions to address
recommendations along with milestones for               weaknesses identified during our review.
completion. (OAS-L-11-01)                               (OAS-L-11-03)


Audit of National Security                              Solar Technology Pathway
Technologies, LLC Internal                              Partnerships Cooperative
Audit Function                                          Agreements

National Security Technologies, LLC (NSTec),            EERE established the Solar Technology Pathway
has managed and operated the Nevada National            Partnerships (Solar TPP) program as part of an
Security Site since July 1, 2006, for NNSA’s            effort to make solar energy cost-competitive with
Nevada Site Office. The contract requires NSTec         conventional forms of electricity by 2015.
to establish and maintain an independent internal       To implement the program, the Department,
audit function and to develop an Internal Audit         beginning in 2007, established cooperative
Implementation Design that describes the audit          agreements with 12 for-profit financial assistance
organization, lines of reporting, oversight             recipients who in turn established partnerships
responsibilities, and auditing standards to be          with universities, non-profit organizations, and
followed. To help ensure that only allowable costs      the Department’s national laboratories. As of
are claimed by management and operating                 June 2010, the Department had reimbursed about
contractors, the OIG, the Department’s Office of        $120 million in costs incurred by the 11 recipients
Procurement and Assistance Management, and              who had begun work, just over 80 percent of total
contractors implemented a Cooperative Audit             program awards of $147 million.
Strategy. This strategy relies on the contractors’
internal audit function to provide audit coverage       We noted that the Department had developed
of the allowability of incurred costs claimed by        and implemented controls designed to ensure that
contractors.                                            Solar TPP projects were awarded in compliance
                                                        with applicable regulations and were making
Although we found that NSTec Internal Audit             adequate technical progress. Our testing,
generally met Institute of Internal Auditors            however, revealed that the Department’s financial
Standards for the seven audits we reviewed, we          monitoring of the $120 million expended for these
identified a number of exceptions in one audit that     projects was not always adequate.
resulted in that audit not meeting quality and
professional standards.                                 The Department concurred with the findings and
                                                        recommendations contained in our audit report.
The audit quality exceptions that we identified         Management stated that it had either completed
were isolated and NSTec has acted to improve            or had ongoing actions to address the issues we
both the quality and independence of its internal       identified. (OAS-M-11-02)
audit organization. To ensure these actions are
completely implemented, we made several



 18    OFFICE OF INSPECTOR GENERAL
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




The Department’s Unclassified                          Commission’s unclassified cyber security program
                                                       adequately protects its information systems
Cyber Security Program – 2010
                                                       and data.
As required by the Federal Information Security
                                                       Our evaluation revealed that the Commission had
Management Act of 2002 (FISMA), the OIG
                                                       taken actions to significantly improve its cyber
conducts an annual independent evaluation to
                                                       security posture and mitigate risks associated with
determine whether the Department’s unclassified
                                                       the weaknesses identified during our FY 2009
cyber security program adequately protects its
                                                       evaluation. However, we identified that security
information systems and data.
                                                       patches needed to resolve known vulnerabilities
                                                       discovered during regularly scheduled scans were
Our evaluation disclosed that the Department
                                                       not applied to all workstations in a timely manner.
had taken steps to enhance its unclassified cyber
                                                       In addition, even though officials had established
security program, including resolving weaknesses
                                                       an automated mechanism for tracking all known
identified during our FY 2009 evaluation.
                                                       vulnerabilities, only 10 percent of the identified
In addition, the Department had initiated
                                                       "high risk" vulnerabilities were actually being
implementation of an automated tool to aid
                                                       tracked.
in security and performance reporting. The
Department also continued to maintain its
                                                       We made a recommendation that, if fully
defense-in-depth strategy to protect its networks
                                                       implemented, should help the Commission further
against intruders and other external threats.
                                                       improve its cyber security posture. Management
While these were positive accomplishments, our
                                                       concurred with the report’s recommendation and
review revealed weaknesses in the areas of access
                                                       disclosed that it had initiated actions to address
controls, configuration and vulnerability
                                                       issues identified in our report. (OAS-M-11-01)
management, web application integrity, and
security planning and testing.

In light of the growing number of cyber security       Critical Asset Vulnerability and
threats and the noted vulnerabilities, we made         Risk Assessments at the Power
several recommendations designed to help the           Marketing Administrations—
Department strengthen its unclassified cyber
                                                       Follow-Up Audit
security program. Management concurred with
our recommendations and indicated that corrective
                                                       The Department’s largest Power Marketing
action would be taken. (DOE/IG-0843)
                                                       Administrations (PMAs), Bonneville, Western
                                                       Area, and Southwestern, provide wholesale electric
                                                       power to utilities for use in millions of homes,
The Federal Energy Regulatory                          hospitals, financial institutions, and military
Commission’s Unclassified Cyber                        installations. To protect these assets, the PMAs
Security Program – 2010                                follow safety and security requirements.
                                                       Department policy, augmented by requirements
As required by FISMA, we conducted an annual           established by the North American Electric
independent evaluation to determine whether the        Reliability Corporation and the Department of

             Public reports are available in full text on our website at www.ig.energy.gov



                                                        OCTOBER 1, 2010 – MARCH 31, 2011            19
                                               SEMIANNUAL
                                              REPORT TO CONGRESS




Homeland Security, require the PMAs to conduct
vulnerability and risk assessments of their most
critical assets.

At the time of our audit, many PMA efforts
essential to identifying current risks or threats and
mitigating those risks remained incomplete.
While a number of activities relevant to critical
infrastructure protection had been initiated, the
PMAs had not completed and updated, when
appropriate, all required vulnerability and risk
assessments and had not conducted required tests
to ensure that security measures for physical assets
were operating as designed. Further, Bonneville
and Western had not implemented security
enhancements recommended in completed
risk assessments.

To help reduce the risk of damage to critical
power-related assets, we recommended that the
PMAs: (1) re-evaluate resource allocation
priorities with a view toward completing required
assessments and implementing needed protective
measures; (2) establish and implement policies
and resource-loaded schedules to ensure that
critical asset vulnerability and risk assessments
are conducted and updated timely and that the
status, decisions and justifications regarding
implementation of recommended security
enhancements are documented; and,
(3) implement security system performance-
based testing consistent with Department
policies. The PMAs generally agreed with the
recommendations and provided planned actions.
(DOE/IG-0842)




  20    OFFICE OF INSPECTOR GENERAL
                                               SEMIANNUAL
                                               REPORT TO CONGRESS




                      Investigative Outcomes

Settlement Agreement                                      Contracts. The manufacturers and the distributor
                                                          failed to provide truthful and accurate pricing
Reached in the Sale of
                                                          information, failed to pass on price reductions and
Defective Body Armor                                      failed to offer discounts when required by their
                                                          GSA Schedule Contracts. Additionally, the
As previously reported, a joint investigation was         investigation determined several of the information
conducted into allegations that a body armor              technology manufactures violated the Anti-
manufacturer knowingly participated in                    Kickback Act. During this reporting period,
manufacturing and sale of defective body armor            1 manufacturer paid $46 million to settle these
containing Zylon. The body armor company sold             allegations. This is an ongoing joint investigation
this defective body armor to the Department as            with the Department of Justice Civil Division,
well as to other Federal, state, local, and tribal law    U.S. Attorney’s Office for the Eastern District of
enforcement agencies. Eight separate companies            Arkansas, Defense Criminal Investigative Service
that provided component parts of the armor, or            (DCIS), GSA OIG, Treasury Inspector General
the armor itself, previously agreed to pay a total of     for Tax Administration, and the U.S. Postal
$59 million to resolve allegations that they              Service OIG.
violated the False Claims Act. During this
reporting period, a ninth company agreed to pay
$1.5 million in settlement of claims by the U.S.          Former Department Grantee
Government. This remains an ongoing
investigation with the Department of Justice Civil        Debarred
Division and several other Federal law
                                                          As previously reported, a joint OIG investigation
enforcement agencies.
                                                          determined that a Department grantee failed to
                                                          ensure compliance with financial and program
                                                          management standards pursuant to various
Information Technology                                    cooperative agreements and grants it was awarded
Manufacturer Pays Large                                   by multiple agencies, resulting in substantial over-
                                                          payments to the grantee. During the course of the
Settlement in Defective Pricing                           investigation, which identified accounting
and False Claims Investigation                            irregularities, the grantee disbanded the company
                                                          and subsequently filed for Chapter 7 Bankruptcy.
As previously reported, an investigation                  As a result of the investigation, Department
determined that information technology                    procurement officials returned $2.9 million to the
manufacturers and a distributor engaged in                U.S. Treasury – monies the company would have
defective pricing that violated the terms of their        received had its 2006 cooperative agreement with
General Services Administration (GSA) Schedule            the Department continued. During this reporting


             Public reports are available in full text on our website at www.ig.energy.gov



                                                           OCTOBER 1, 2010 – MARCH 31, 2011             21
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




period, the former Department grantee was               Guilty Pleas and Sentencing in
debarred from doing business with the Federal
                                                        Purchase Card Fraud
Government for a period of 5 years. This
investigation was conducted jointly with the Office     Investigation
of Inspectors General at the U.S. Environmental
Protection Agency (EPA), U.S. Department of             As previously reported, a former contractor
Agriculture, the U.S. Department of Interior, and       employee pled guilty in U.S. District Court for the
the GSA.                                                Eastern District of Washington to 15 counts of
                                                        Wire Fraud in connection with a purchase card
                                                        fraud investigation. The investigation determined
Owner and Employee of Metal                             that the subject, a purchase card holder, made 219
                                                        fraudulent Government-funded purchase card
Recycling Business Plead Guilty                         transactions for personal items totaling over
to Financial Structuring Charges                        $564,326. During this reporting period, the
                                                        former contractor employee was sentenced to 20
The owner and an employee of a metal recycling          months incarceration followed by 3 years
business, with no affiliation to the Department,        probation, and was ordered to pay $564,326
pled guilty in U.S. District Court, Eastern District    restitution and $1,500 in fines and special
of Washington, to seven counts of Structuring           assessments. The former contractor employee was
Financial Transactions to avoid reporting               also debarred from Government contracting for 3
requirements and one count of Conspiracy to             years. Also during this reporting period, two
Commit Structuring. The investigation                   former contractor employees, who assisted in the
determined that the individuals knowingly               scheme, each pled guilty to five counts of Wire
purchased stolen recyclable metals, including metal     Fraud in U.S. District Court for the Eastern
from the Bonneville Power Administration                District of Washington. Each was sentenced to 4
(Bonneville), and improperly structured cash            months home confinement followed by 1 year
withdrawals to avoid filing currency transaction        probation, and both were ordered to pay a
reports. As part of the plea, the individuals agreed    combined total of $22,000 in restitution and fines.
to forfeit assets, including currency, financial        The investigation also determined that the two
instruments, real estate and vehicles exceeding         former employees solicited and received numerous
$1.5 million. This is an ongoing joint                  items that were improperly purchased with a
investigation with the Federal Bureau of                Government-funded purchase card. Further, an
Investigation (FBI), Internal Revenue Service           Investigative Report to Management (IRM) was
(IRS), and State and local law enforcement.             issued to the Director of the Office of
                                                        Procurement and Assistance Management
                                                        recommending the suspension and debarment of
                                                        the two former contractor employees.




 22    OFFICE OF INSPECTOR GENERAL
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




Former Department Supply                               Guilty Plea in Purchase Card
Contractor Sentenced in                                Fraud Investigation
Purchase Card Fraud
                                                       A former Department contractor employee and an
Investigation
                                                       individual with no affiliation to the Department
A former Department supply contractor pled             pled guilty in U.S. District Court, Eastern District
guilty in Federal District Court for the Eastern       of Washington, to Conspiracy to Commit Wire
District of Washington to 2 counts of Wire Fraud       Fraud in connection with a purchase card fraud
and was sentenced to 366 days incarceration and 3      investigation. The former contractor employee
years probation, and was ordered to pay $487,000       was sentenced to 3 months home confinement
in restitution to the Department. The                  with electronic monitoring followed by 3 years
investigation determined that the former               probation, and ordered to pay $150,000 in
Department subcontractor employee utilized             restitution to the Department. The investigation
Government-funded purchase cards in a                  determined that the former contractor employee
conspiracy with his spouse, the former                 conspired with the individual to defraud the
Department supply contractor, to embezzle              Federal Government. The former contractor
approximately $487,000 from the Department.            employee used his Government-funded purchase
The purchase card was used to make unauthorized        card to place orders with the individual’s supply
purchases from the spouse’s company.                   company. That individual then funneled those
                                                       orders to a company owned by the former
                                                       contractor employee’s spouse. The Department
                                                       ultimately paid approximately $700,000 for
Monetary Recovery as a
                                                       materials that could have been purchased for
Result of Investigative Report                         approximately $300,000.
to Management

A Department contractor agreed to repay
$438,790 as a result of improper billing for
unallowable costs. An IRM had been issued to the
Department’s Environmental Management
Consolidated Business Center regarding
unallowable costs billed to the Department and
other Federal agencies. The investigation
determined that the Department contractor
violated Federal Acquisition Regulations pertaining
to allowable costs, labor mischarging, trade
missions and severance payments. This is an
ongoing joint investigation with the DCIS, U.S.
Army Criminal Investigation Command, EPA
OIG, and Defense Contract Audit Agency.



            Public reports are available in full text on our website at www.ig.energy.gov



                                                        OCTOBER 1, 2010 – MARCH 31, 2011             23
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




Monetary Recovery,                                            subcontractor employee acted alone in
                                                              submitting fraudulent documents in order
Convictions, Pre-Trial Diversion,
                                                              to receive unauthorized per diem payments.
and Indictments for Improper                                  Those per diem payments were funded with
Payment of Per Diem                                           Recovery Act funds. The second
                                                              investigation determined that two former
A number of OIG investigations involved the                   subcontractor employees conspired and
improper payment of per diem by Savannah River                completed a scheme to submit fraudulent
Nuclear Solutions (SRNS). A number of these                   documents in order for one of the former
investigations involve Recovery Act funds:                    subcontractor employees to receive per diem
                                                              benefits. Those per diem payments were
   ■   In 2 of the investigations, the OIG was
                                                              not funded by Recovery Act funds.
       notified that SRNS reduced its award fee
       by $1.14 million to offset monies paid to          ■   In another investigation, a former
       ineligible per diem recipients. The                    subcontractor employee falsified per diem
       investigations determined SRNS paid per                certification forms in order to receive the
       diem allowances to ineligible employees on             ineligible Recovery Act-funded payments.
       multiple occasions. Approximately                      The former SRNS subcontractor employee
       $700,000 of the total recouped money                   entered into a pre-trial diversion agreement
       involved Recovery Act funds. This was the              for 18 months. As part of the agreement,
       first DOE OIG monetary recovery on an                  the former subcontractor employee
       investigation involving Recovery Act funds.            reimbursed the Department $22,561 and
                                                              was suspended from any future Department
   ■   In a third investigation, a former SRNS
                                                              related employment for 18 months.
       subcontractor employee pled guilty in
       U.S. District Court for the District of            ■   In 3 other separate but related
       South Carolina, to one count of making                 investigations, 3 former SRNS
       false statements to receive Recovery Act               subcontractor employees were terminated
       funded per diem benefits while working at              for fraudulently obtaining approximately
       a Department site. As previously reported,             $90,000 in Department funded per diem
       the former employee was indicted for                   payments. The investigations determined
       making false per diem eligibility                      that each of the former subcontractor
       certifications to fraudulently obtain                  employees made false statements to
       approximately $44,415 in Department                    receive the per diem payments they would
       funds. This was the first DOE OIG                      otherwise be ineligible to receive. To
       conviction in an investigation involving               date, the Department has been
       Recovery Act funds.                                    reimbursed $24,362.
   ■   In two separate but related investigations,        ■   As previously reported, an OIG
       three former SRNS subcontractor                        investigation determined that a former
       employees were indicted in U.S. District               subcontractor employee knowingly made
       Court for the District of South Carolina for           false statements to support eligibility to
       theft of Government funds for fraudulently             receive per diem payments. During this
       obtaining unauthorized per diem payments.              reporting period, as part of a pre-trial
       The first investigation determined a former            diversion agreement, the former



 24     OFFICE OF INSPECTOR GENERAL
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




      subcontractor employee was suspended             the Central District of California sentenced the
      from employment at all the Department’s          president to 2 years probation, and the payment of
      sites and facilities, and with the               a $3,600 fine. This was a joint investigation with
      Department’s contractors for 18 months.          DCIS, National Aeronautics and Space
      The Department also received $10,906             Administration OIG, Air Force Office of Special
      in restitution from the former                   Investigations, Naval Criminal Investigative
      subcontractor employee.                          Service, and GSA OIG.


Former Pantex Subcontract
                                                       Recovery in Cost Sharing
Employee Debarred
                                                       Investigation
As previously reported, an OIG investigation
                                                       As a result of an OIG investigation, the
determined that a former Department
                                                       Department took administrative action to correct
subcontractor employee submitted approximately
                                                       an error in which a Department contractor failed
$163,000 in false travel and time and attendance
                                                       to provide the required funds under a cost sharing
claims for himself and on behalf of company
                                                       agreement. The contractor has since placed
employees. The former subcontractor employee
                                                       $75,000 into a cost sharing account. The
was convicted on 16 counts of False Claims,
                                                       Department also changed its policies to ensure
11 counts of Forged or Altered Public Records,
                                                       future contractor compliance.
1 count of Theft of Public Money, and 1 count
of Wire Fraud in the Northern District of Texas.
During this reporting period, the former
Department subcontractor employee was                  Weatherization Assistance
debarred from doing business with the Federal          Program Contractor Plea and
Government for 3 years.
                                                       Sentencing

                                                       As previously reported, a former Department
President of Former Department                         Weatherization Assistance Program contractor
Subcontractor Sentenced                                employee was arrested by the U.S. Marshals
                                                       Service in Mobile, Alabama, pursuant to an
As previously reported, the president of a former      arrest warrant issued from an OIG investigation.
subcontractor pled guilty to two counts of making      The contractor had previously been indicted
False Statements. The president falsely represented    on one count of Theft of Public Money. The
to the Department that the subcontractor’s             investigation determined the contractor employee
computers were Government certified and                billed for and received payment in excess of
manufactured in the United States. The                 $37,000 in Weatherization Assistance Program
investigation determined that the Department           materials and labor he never provided. During
purchased $120,000 worth of computers and              this reporting period, the former contractor
supplies from the former subcontractor. During         employee pled guilty to 1 count of Theft of Public
this reporting period, the U.S. District Court for     Money in Federal District Court for the Southern


            Public reports are available in full text on our website at www.ig.energy.gov



                                                        OCTOBER 1, 2010 – MARCH 31, 2011           25
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




District of Alabama and was sentenced to 5 years       documents and received $17,885 in ineligible
probation. The former contractor employee was          subsistence allowance from Los Alamos. The
also ordered to pay $37,000 in restitution to the      former contractor employee subsequently resigned
Department and was fined $100. Also during             from his position and repaid all of the funds to the
this reporting period, an IRM was issued               Department. The former contractor employee was
recommending suspension and debarment of               placed into the State of New Mexico’s Pre-
the former contractor employee and the former          Prosecution Diversion Program by the 1st Judicial
contractor employee’s two businesses. The former       District Attorney’s Office of New Mexico. During
contractor employee and the two businesses have        this reporting period, and in response to an OIG
been suspended from contracting. Debarment for         IRM, the Director of the NNSA’s Office of
all three is pending.                                  Acquisition and Supply Management debarred the
                                                       former Los Alamos contractor employee from
                                                       doing business with the Federal Government for
Former Employee of NNSA                                3 years.
Grantee Debarred

As previously reported, a joint OIG investigation      Former Oak Ridge
with the FBI determined that a former employee         Subcontractor Employee
of a NNSA grantee stole computer equipment             Terminated and Department
valued at $24,290 from the university where he
                                                       Reimbursed
was employed. The former employee was
convicted of 1 count of theft of Government
                                                       An OIG investigation determined that a former
property and was sentenced to 2 years probation
                                                       subcontractor employee was operating personal
and 100 hours community service. He was also
                                                       commercial businesses while being paid to perform
ordered to pay restitution in the amount of
                                                       Department work. The former subcontractor
$12,614 to the Department. During this
                                                       employee’s employment was terminated and the
reporting period, in response to an IRM, the
                                                       subcontractor reimbursed the Department
Director of NNSA’s Office of Acquisition and
                                                       $17,250 for work not performed. The
Supply Management debarred the former
                                                       investigation also determined that a potential
employee and his company from doing business
                                                       conflict of interest existed between the owner of
with the Government for 3 years.
                                                       the former subcontractor employee’s company and
                                                       a Department employee. The OIG issued an IRM
                                                       recommending a review of procurement
Former Los Alamos National                             procedures. Management implemented the
Laboratory Contractor                                  recommendation and incorporated new language
Employee Suspended                                     into its confidentiality agreement requiring
                                                       disclosure of personal relationships.
& Debarred

As previously reported, this OIG investigation
determined that while employed at Los Alamos
National Laboratory (Los Alamos), a former
contractor employee submitted fraudulent



 26    OFFICE OF INSPECTOR GENERAL
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




Former Los Alamos Contractor                           Alamos made over $6,400 in fraudulent charges
                                                       on 2 stolen GSA Fleet Fuel Cards issued to Los
Employee Sentenced and
                                                       Alamos. Pursuant to prosecution, 1 individual was
Investigative Report to                                accepted into the State of New Mexico’s Pre-
Management Issued                                      Prosecution Diversion Program (Diversion
                                                       Program) for a term of 6 months to 2 years and
As previously reported, this OIG investigation         was ordered to pay $250 in fines and restitution to
determined that while employed as a timekeeper at      the Department. The former Los Alamos
Los Alamos, the former contractor employee             subcontractor employee was also accepted into the
submitted fraudulent time and attendance claims        Diversion Program for a term of 6 months up to 2
causing Los Alamos to pay the former employee          years, and ordered to pay $500 in fines and
$15,363 for work not performed. The former Los         restitution to the Department. During this
Alamos contractor employee pled guilty to one          reporting period, the third person pled guilty to 1
count of Theft of Government Property in U.S.          count of Fraudulent Transfer/Receipt of a Credit
District Court for the District of New Mexico.         Card, and was sentenced to 18 months probation,
During this reporting period, the former contractor    and was ordered to pay $800 in fines and
employee was sentenced to 3 years probation, and       restitution to the Department. Also during this
was ordered to pay $15,363 restitution to the          period, the OIG issued an IRM to the NNSA’s
Department and a $100 fine to the court.               Office of Supply and Acquisition Management
                                                       (OSAM). As a result, the OSAM suspended and
                                                       proposed the debarment of all three individuals
Restitution Paid by Former                             from government contracting. This is an ongoing
                                                       joint investigation with the GSA OIG.
Contractor Employee

As previously reported, an OIG investigation
determined that a former contractor employee stole     Former Department Manager
approximately $13,134 in computer equipment by         and Spouse Debarred
inappropriately using a rewards program account.
During this reporting period, as part of an            As previously reported, a former mid-level
agreement with the Alameda County District             Department manager and the manager’s spouse
Attorney’s Office, the former Department contractor    were convicted of Conflict of Interest violations
employee paid $13,134 in restitution to Berkeley.      and False Statements, respectively, and were each
                                                       sentenced in the U.S. District Court for the
                                                       District of Maryland to 36 months probation,
Guilty Plea and Investigative                          50 hours of community service, and a $5,000
                                                       fine. They were also suspended from doing
Report to Management Issued                            business with the Federal Government for a period
in Fuel Card Fraud Investigation                       of 1 year. During this reporting period, the
at Los Alamos                                          former manager, the manager’s spouse and
                                                       2 companies owned by the spouse were debarred
This joint OIG investigation determined that a         from participating in Federal procurement and
former Los Alamos subcontract employee and             non-procurement programs for a period of 3 years.
2 other individuals with no affiliation to Los



                                                        OCTOBER 1, 2010 – MARCH 31, 2011           27
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




Former Y-12 Security Police                             Multiple Debarments Resulting
Officer (SPO) Sentenced                                 From Mail Fraud Investigation
and Fined
                                                        As previously reported, a joint investigation with
A former Y-12 SPO entered into a pre-trial              the FBI determined that a subcontractor
diversion agreement in the 7th Judicial District of     employee, along with other co-conspirators, used
Tennessee for a period of 2 years and was ordered       the U.S. Postal Service to submit invoices and
to pay a fine of $3,000 to a State Economic Crime       obtain payments from a Federal Energy Regulatory
Fund. The investigation determined that the             Commission (Commission) grantee for work not
former SPO submitted a fraudulent short-term            performed. One of the co-conspirators was
disability claim in order to gain time off to attend    convicted of one count of Mail Fraud. An IRM
training for future employment with a different         was issued to the Director of the Office of
company.                                                Procurement and Assistance Management
                                                        recommending the suspension and debarment of a
                                                        Commission subcontractor employee and several
                                                        companies. During this reporting period, the
Former Pantex Plant (Pantex)
                                                        former Commission subcontractor employee and
Contractor Employees                                    4 companies associated with the former employee
Terminated                                              were debarred from conducting any work for the
                                                        Government for a period of 3 years. Also during
Two former contractor employees were terminated         this reporting period, the co-conspirator was
from employment at Pantex pursuant to OIG               sentenced to 18 months probation and 150 hours
investigative findings. The investigation               of community service.
determined that 2 contractor employees, along
with another former Pantex contractor employee,
stole various items including industrial power          Contractor Employee
equipment, copper and building materials from           Terminated as a Result of an
Pantex totaling approximately $2,289. This is an
ongoing joint investigation with the FBI.               OIG Joint Investigation

                                                        A contractor employee was terminated from
                                                        Los Alamos as a result of an OIG joint
Pre-Trial Diversion in Travel
                                                        investigation. The investigation determined the
Fraud Investigation                                     former contractor employee stole various items
                                                        from Los Alamos, including industrial power
A former Department employee at Bonneville              equipment. The exact loss to the Department
entered into an 18-month pre-trial diversion            has not been determined. This is an ongoing
agreement with the U.S. Attorney’s Office for the       joint investigation with the U.S. Fish and
District of Oregon and agreed to pay the                Wildlife Service.
Department $2,011 in restitution. The joint
investigation with the FBI determined that
between July 2007 and August 2008 the former
employee received payment for business trips the
former employee never took.


 28    OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




                     Positive Outcomes

Highlights Based on Office of                                         objectives and fully comply with
                                                                      Federal Requirements.
Inspector General Work
                                                                  ●   to improve its administration of
During this reporting period, the Department                          Recovery Act funds as part of their
took positive actions as a result of OIG work                         ongoing monitoring of the State of
conducted during the current or previous periods.                     Arizona’s Weatherization program and
Consistent with our findings and                                      to promptly resolve the questioned
recommendations:                                                      costs.
                                                                  ●   to address weaknesses in project
   ■   The Loan Guarantee Program officials                           administration to ensure that the
       acknowledged the need and began to take                        Government’s interests are protected,
       action to develop and implement a sound                        financial assistance recipients fully
       records management system to enhance                           comply with Federal requirements,
       the transparency of the decision-making                        and the goals of the Recovery Act
       process and to update loan related policies                    are met.
       and procedures.
                                                           ■   The OIG issued a management alert
   ■   To address weaknesses we discussed in its               regarding a potential weakness in the
       weatherization program, the State of                    Department’s Rebate Program. This alert
       Florida’s Department of Community Affairs               served to notify the Department that the
       had: (1) directed all provider agencies that            Program in the State of Georgia contains
       had Weatherization data pre-dating the                  weaknesses that prevent officials from
       State system to retain this information                 identifying ineligible appliance rebates and
       back to 1994; (2) directed its support                  verifying that recipients replaced older
       contractor to incorporate a query in the                inefficient appliances with ENERGY
       system to allow for checking the dwe                    STAR® qualified appliances. Management
       address in addition to the client check;                responded positively to the alert and
       and, (3) had recovered questioned costs                 reported to the OIG that the Department
       from Capital Area, a non-profit community               has taken several actions to mitigate future
       action agency.                                          fraud in the Program, including sending a
                                                               Program alert to all State and Territory
   ■   In response to several audits on program                energy offices that summarized the Georgia
       administration, EERE agreed:                            incident and included specific steps taken to
           ● with and provided planned and                     address the problem.
             ongoing actions to identify several
             opportunities to increase the                 ■   During an audit of Recovery Act funds
             likelihood that Pennsylvania’s                    utilization, we noted that Berkeley planned
             Weatherization Program will satisfy its           to build a switching station that had no



                                                         OCTOBER 1, 2010 – MARCH 31, 2011                29
                                           SEMIANNUAL
                                           REPORT TO CONGRESS




     near term use. In response to our concerns,             with routine tours of Los Alamos facilities
     Berkeley cancelled the station and now                  in order to gain the familiarity necessary to
     plans to use available funds to upgrade                 effectively respond in the event of an
     office and laboratory space.                            emergency.

■    The Department and NNSA have begun                  ■   To help resolve accountability problems,
     validating the effectiveness of corrective              Livermore immediately revised the
     actions resulting from emergency planning               institutional procedures for controlled
     and COOP drills and exercises, formally                 substances inventory management with the
     sharing lessons learned and expeditiously               objective of clarifying and enhancing the
     completing Hazards Surveys and Emergency                accounting process when notified that the
     Planning Hazards Assessments.                           Laboratory was not appropriately managing
                                                             its controlled substances in accordance with
■    Programs and sites have taken corrective                Federal regulations and Department policy
     action to address previously identified cyber           intended to prevent misuse or
     security weaknesses in the areas of access              misappropriation.
     control, configuration management, and
     segregation of duties.                              ■   The Small Business Innovation Research
                                                             (SBIR)/Small Business Technology Transfer
■    The Commission has made significant                     (SBTT) Investigations Working Group was
     progress in the enhancement of its                      formed in early 2010 representing 10
     unclassified cyber security program. In                 Inspectors General and all military criminal
     addition, the Commission enhanced its plan              investigative organizations with relevant
     of action and milestones database to include            oversight authority. The group is a forum
     more specificity to help manage the cyber               for collaboration between OIGs and other
     security program.                                       law enforcement agencies. The group
                                                             focuses on coordinating information sharing
■    The Department took positive steps to                   and conducting investigations of fraud and
     improve the overall effectiveness of                    abuse in the SBIR and SBTT programs.
     emergency responders and enhance their                  The group has successfully facilitated access
     ability to resolve problems related to                  to relevant SBIR and SBTT information
     damaged energy systems and components                   between agencies, which has helped combat
     during incidents and disasters.                         fraud and costly duplication of grants
                                                             between agencies.
■    NNSA took corrective action to ensure that
     (1) fire fighters from the Los Alamos Fire
     Department received adequate training to
     improve their ability to respond to incidents
     involving the unique hazard environments
     at Los Alamos, to include specialized
     training necessary for the specific types of
     hazards and hazardous materials at Los
     Alamos; and, (2) fire fighters are provided




30    OFFICE OF INSPECTOR GENERAL
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




Congressional Responses                                Qui Tams

During this reporting period, the OIG provided         Since 1996, the OIG has been instrumental in
information at the request of Congress in 34           working with the Department of Justice in
instances and briefed congressional staff on 9         Qui Tam cases. The OIG is currently working on
occasions. In addition, the OIG testified at one       15 Qui Tam lawsuits involving alleged fraud
congressional hearing before the Subcommittee on       against the Government with potential liability in
Oversight and Investigations, House Committee          the amount of approximately $226,800,000.
on Energy and Commerce on March, 17, 2011.             While these cases are highly resource intensive,
The hearing was entitled, “Oversight of                requiring extensive OIG investigative and audit
Department of Energy Recovery Act Spending."           effort, they have proven to result in a high return
                                                       on our investment.

Legislative and Regulatory
Reviews                                                Management Referral System

The Inspector General Act of 1978, as amended,         The OIG referred 200 complaints to Department
requires the OIG to review and comment upon            management and other government agencies
legislation and regulations relating to Department     during the reporting period and specifically
programs and to make recommendations                   requested Department management to respond
concerning the impact of such legislation or           concerning the actions taken on 56 of these
regulations on departmental economy and                complaints. Otherwise, Department management
efficiency. The OIG coordinated and reviewed 45        was asked to respond only if it developed
items during this reporting period.                    information or took action that it believed should
                                                       be reported. The following referrals for which
                                                       responses were received during this reporting
                                                       period demonstrate management’s use of OIG-
Hotline System
                                                       provided information to stimulate positive change
                                                       or to take decisive action:
The OIG operates a Hotline System to facilitate
the reporting of allegations involving the programs       ■   In response to an OIG referral, two Western
and activities under the auspices of the
                                                              Area Power Administration officials were
Department. During this reporting period, the
                                                              orally admonished for “tolerance of
Hotline received 2,749 contacts (calls, letters, e-
                                                              innuendos and off color remarks” in the
mails, walk-ins, and Qui Tams), of which 284
                                                              workplace.
were processed as complaints. The OIG Hotline
System can be reached by calling 1-800-541-1625           ■   Department management initiated a review
or 1-202-586-4073.
                                                              after being notified by the OIG of a
                                                              complaint received that Savannah River
                                                              contractor radiation control technicians
                                                              were not performing daily source checks on
                                                              radiological instruments. The Savannah
                                                              River Operations Office determined that



                                                        OCTOBER 1, 2010 – MARCH 31, 2011             31
                                           SEMIANNUAL
                                          REPORT TO CONGRESS




     the allegations were unfounded. However,
     management developed and disseminated a
     formal reminder addressing the need for
     attention to detail when completing
     electronic radiological survey records
     applicable to the site-wide Radiological
     Protection organization.

■    In response to an OIG referral, an
     assessment was conducted of the Pacific
     Northwest National Laboratory’s Contractor
     Employee Concerns Program. The review
     identified opportunities for Program
     improvement including taking steps to
     ensure greater independence and Program
     effectiveness and revising the program
     manager’s position description and
     performance evaluation to reflect
     appropriate expectations.

■    The Financial Evaluation and
     Accountability Division for the CFO at
     Oak Ridge initiated a review based on an
     OIG referral concerning potential
     unallowable travel costs. Management’s
     review identified $690 in unallowable travel
     costs which was subsequently reimbursed to
     the Department.

■    In response to an OIG referral, Department
     management initiated a review to ascertain
     if a re-compete of a contract at the
     Department’s Oak Ridge facility unduly
     favored the incumbent. The review
     determined that the North American
     Industry Classification System code used
     during the pre-solicitation phase did not
     correctly describe the scope of work and
     warranted modification.




32    OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




                    Appendix 1 - Reports


           Recovery Act and Recovery Act Related
                      Reports Issued
                           October 1, 2010 – March 31, 2011

Report                                                              Date                   Questioned
Number                               Title                         Issued      Savings       Costs

OAS-RA-11-01     The State of Illinois Weatherization             10-14-10
                 Assistance Program

OAS-RA-11-02     Selected Aspects of the Commonwealth of          11-01-10   $15,800,000
                 Pennsylvania’s Efforts to Implement the
                 American Recovery and Reinvestment Act
                 Weatherization Assistance Program

OAS-RA-11-03     The Department of Energy’s Weatherization        11-30-10                  $348,000
                 Assistance Program under the American
                 Recovery and Reinvestment Act for the City
                 of Phoenix – Agreed-Upon Procedures

OAS-RA-11-04     The Department of Energy’s Weatherization        02-01-11                     $3,502
                 Assistance Program under the American
                 Recovery and Reinvestment Act for the
                 Capital Area Community Action Agency –
                 Agreed-Upon Procedures

OAS-RA-11-05     The Department of Energy’s Geothermal            03-22-11                  $109,619
                 Technologies Program under the American
                 Recovery and Reinvestment Act

OAS-RA-11-06     The Department of Energy’s American              03-22-11
                 Recovery and Reinvestment Act –
                 Massachusetts State Energy Program

OAS-RA-L-11-01   Management of the Plutonium Finishing            11-10-10
                 Plant Closure Project




                                                         OCTOBER 1, 2010 – MARCH 31, 2011        33
                                           SEMIANNUAL
                                           REPORT TO CONGRESS




           Recovery Act and Recovery Act Related
                      Reports Issued
                           October 1, 2010 – March 31, 2011

Report                                                           Date                Questioned
Number                             Title                        Issued     Savings     Costs

OAS-RA-L-11-02   Environmental Cleanup Projects Funded by       12-20-10
                 the Recovery Act at the Y-12 National
                 Security Complex

OAS-RA-L-11-03   Management of the Tank Farm Recovery           02-09-11
                 Act Infrastructure Upgrades Project

OAS-RA-L-11-04   The Department’s Infrastructure                03-02-11
                 Modernization Projects under the
                 American Recovery and Reinvestment
                 Act of 2009

OAS-RA-L-11-05   Recovery Act Funded Projects at the SLAC       03-08-11
                 National Accelerator Laboratory

IG-0849          The Department of Energy’s Loan                03-03-11
                 Guarantee Program for Clean
                 Energy Technologies

INV-RA-11-01     Management Alert on the State Energy           12-03-10
                 Efficient Appliance Rebate Program




34   OFFICE OF INSPECTOR GENERAL
                                           SEMIANNUAL
                                           REPORT TO CONGRESS




                      Other Audit Reports Issued
                         October 1, 2010 – March 31, 2011

Report                                                            Date                Questioned
Number                             Title                         Issued     Savings     Costs

IG-0842        Critical Asset Vulnerability and Risk            10-0-7-10
               Assessments at the Power Marketing
               Administrations – Follow-up Audit

IG-0843        The Department’s Unclassified Cyber              10-22-10
               Security Program – 2010

IG-0844        Management Challenges at the Department          11-16-10
               of Energy

IG-0845        Improvements Needed in the Department’s          01-03-11
               Emergency Preparedness and Continuity of
               Operations Planning

IG-0846        Federal Energy Regulatory Commission’s           01-26-11
               Monitoring of Power Grid Cyber Security

IG-0848        The Department of Energy’s K Basins Sludge       02-17-11              $1,000,000
               Treatment Project at the Hanford Site

OAS-M-11-01    The Federal Energy Regulatory Commission’s       10-25-10
               Unclassified Cyber Security Program – 2010

OAS-M-11-02    Solar Technology Pathway Partnerships            03-22-11
               Cooperative Agreements

OAS-L-11-01    Questioned, Unresolved and Potentially           11-05-10
               Unallowable Costs Incurred by Sandia
               Corporation during Fiscal Years 2007
               and 2008

OAS-L-11-02    The Department of Energy’s Energy                02-09-11
               Conservation Efforts

OAS-L-11-03    Audit of National Security                       03-08-11
               Technologies, LLC Internal Audit Function

OAS-FS-11-01   The Department of Energy’s Fiscal Year           11-12-10
               2010 Consolidated Financial Statements




                                                           OCTOBER 1, 2010 – MARCH 31, 2011   35
                                          SEMIANNUAL
                                          REPORT TO CONGRESS




                      Other Audit Reports Issued
                         October 1, 2010 – March 31, 2011

Report                                                          Date                Questioned
Number                            Title                        Issued     Savings     Costs

OAS-FS-11-02   Federal Energy Regulatory Commission’s          11-09-10
               Fiscal Year 2010 Financial Statement Audit

OAS-FS-11-03   Office of Civilian Radioactive Waste            11-15-10
               Management’s Fiscal Year 2010 Financial
               Statement Audit

OAS-FS-11-04   Information Technology Management Letter        12-21-10
               on the Audit of the Department of Energy’s
               Consolidated Balance Sheet for
               Fiscal Year 2010

OAS-FS-11-05   Management Letter on the Audit of the           12-20-10
               Department of Energy’s Consolidated
               Financial Statements for Fiscal Year 2010

OAS-V-11-01    Audit Coverage of Cost Allowability for         10-05-10             $10,324,001
               Sandia Corporation during Fiscal Years
               2007 and 2008 under Department of
               Energy Contract Number
               DE-AC04-94AL85000

OAS-V-11-02    Audit Coverage of Cost Allowability for B&W 11-23-10                   $829,000
               Technical Services Y-12, LLC under Department
               of Energy Contract Number
               DE-AC05-00OR22800 for Fiscal Year 2009

OAS-V-11-03    Audit Coverage of Cost Allowability for         01-11-11              $8,408,155
               Babcock & Wilcox Technical Services
               Pantex, LLC during Fiscal Years 2006
               through 2009 under Department of Energy
               Contract Number DE-AC04-00AL66620

OAS-V-11-04    Audit Coverage of Cost Allowability for         03-01-11
               Battelle Energy Alliance, LLC under
               Department of Energy Contract Number
               DE-AC07-05ID14517 during
               Fiscal Year 2009




36   OFFICE OF INSPECTOR GENERAL
                                          SEMIANNUAL
                                          REPORT TO CONGRESS




                     Other Audit Reports Issued
                        October 1, 2010 – March 31, 2011

Report                                                          Date                Questioned
Number                            Title                        Issued     Savings     Costs

OAS-V-11-05   Audit Coverage of Cost Allowability for          03-02-11               $144,930
              Battelle Memorial Institute under
              Department of Energy Contract Number
              DE-AC05-76RL01830 during
              Fiscal Year 2009

OAS-V-11-06   Audit Coverage of Cost Allowability for          03-04-11               $574,912
              Washington Savannah River Company, LLC
               Department of Energy Contract Number
              DE-AC09-96SR18500 during Fiscal Years
              2007 through 2009

OAS-V-11-07   Audit Coverage of Cost Allowability for          03-25-11                $65,905
              University of Chicago Argonne, LLC under
              Department of Energy Contract Number
              DE-AC02-06-CH11357 for Fiscal Year 2009

OAS-V-11-08   Audit Coverage of Cost Allowability for          03-31-11               $103,144
              UT-Battelle, LLC under Department of Energy
              Contract Number DE-AC05-00OR22725
              for Fiscal Years 2008 and 2009


                       Inspection Reports Issued
                        October 1, 2010 – March 31, 2011
Report                                                          Date                Questioned
Number                            Title                        Issued     Savings     Costs

INS-L-11-01   Inspection of Allegations Relating to            11-17-10
              Irregularities in the Human Reliability
              Program and Alcohol Abuse within the
              Office of Secure Transportation

IG-0847       The Department’s Implementation of the “Energy   01-31-11
              Annex, Emergency Support Function 12”
              to the National Response Framework

INS-O-11-01   Management of Controlled Substances at           02-10-11
              Lawrence Livermore National Laboratory




                                                        OCTOBER 1, 2010 – MARCH 31, 2011   37
                                                             SEMIANNUAL
                                                             REPORT TO CONGRESS




                               Appendix 2 - Tables


                      Audit Reports with Recommendations
                             for Better Use of Funds
                                         October 1, 2010 – March 31, 2011
                                               (Dollars in Thousands)
     The following table shows the total number of audit reports and the total dollar value of the recommendations that
                                          funds be put to better use by management:

                                                                Total             One Time               Recurring                  Total
                                                               Number              Savings                Savings                  Savings

  A. Those issued before the reporting period                        5          $596,679,522                  $0             $596,679,522
     for which no management decision has
     been made:*

  B. Those issued during the reporting period:                      25            $15,800,000                 $0               $15,800,000

           Subtotals (A + B)                                        30            $612,479,522                $0              $612,479,522

  C. Those for which a management decision
     was made during the reporting period:*                         16            $17,181,439                 $0               $17,181,439

        (i) Agreed to by management:                                                $1,252,657                $0                 $1,252,657

        (ii) Not agreed by management:                                                 $128,782               $0                       $128,782

  D. Those for which a management decision                          10                           $0           $0                            $0
     is not required:

  E. Those for which no management decision                          4          $611,098,083                  $0             $611,098,083
      has been made at the end of the
      reporting period:*

  Definition of Terms Used in the Table
  Funds put to better use: Funds that could be used more efficiently by implementing recommended actions.
  Unsupported costs: A cost that is not supported by adequate documentation. Questioned costs include
  unsupported costs.
  Management decision: Management’s evaluation of the finding and recommendations included in the audit
  report and the issuance of a final decision by management concerning its response.
*The figures for dollar items included sums for which management decisions on the savings were deferred and, in some cases, awaiting
 determination by the Contracting Officer.




  38      OFFICE OF INSPECTOR GENERAL
                                                                SEMIANNUAL
                                                               REPORT TO CONGRESS




    Audit and Inspection Reports with Questioned Costs
                                           October 1, 2010 – March 31, 2011
                                                 (Dollars in Thousands)
              The following table shows the total number of audit and inspection reports and the total dollar value of
                                                 questioned and unsupported costs.

                                                                          Total               Questioned                      Unsupported
                                                                         Number                 Costs                            Costs

     A. Those issued before the reporting period for                           1             $225,714,027                       $123,000
        which no management decision has
        been made:*

     B. Those issued during the reporting period:                             11              $21,838,168                         $73,000

             Subtotals (A + B)                                                11              $246,452,195                       $196,000

     C. Those for which a management decision was                             11              $23,607,071                         $73,000
        made during the reporting period:*

          (i) Value of disallowed costs:                                                           $661,2651                            $0

          (ii) Value of costs not disallowed:                                                   $3,134,8682                             $0

     D. Those for which a management decision is                               0                             $0                         $0
        not required:

     E. Those for which no management decision                                 0             $243,967,062                       $196,000
        has been made at the end of the
        reporting period:*

     Definition of Terms Used in the Table
     Questioned costs: A cost that is (1) unnecessary; (2) unreasonable; (3) unsupported; (4) or an alleged
     violation of law, regulation, contract, etc.
     Unsupported costs: A cost that is not supported by adequate documentation. Questioned costs include
     unsupported costs.
     Management decision: Management’s evaluation of the finding and recommendations included in the audit
     and inspection report and the issuance of a final decision by management concerning its response.
1
    Audits - $130,265; Inspections - $531,000 (The OIG projected $300,000 in disallowed costs in Inspection Report # INS-O-10-02, July 2010. A
    subsequent analysis conducted by the Department resulted in an additional $231,000 of disallowed costs.)
2
    Audits - $2,354,868; Inspections - $780,000 (Identifies the costs not disallowed in Inspection Report # INS-O-10-02, July 2010.)
*The figures for dollar items included sums for which management decisions on the savings were deferred and, in some cases, awaiting determination by
 the Contracting Officer.




                                                                                   OCTOBER 1, 2010 – MARCH 31, 2011                          39
                                             SEMIANNUAL
                                            REPORT TO CONGRESS




Reports Lacking                                           Sustainability Office. The finalization of the
                                                          management decision is pending coordination
Management Decision
                                                          with the newly established office; a final
                                                          management decision is expected by
The Department has a system in place to track
                                                          September 30, 2011.
audit and inspection reports and management
decisions. Its purpose is to ensure that
                                                          OAS-SR-10-04: Review of Allegations
recommendations and corrective actions indicated
                                                          Regarding Hiring and Contracting in EERE,
by audit agencies and agreed to by management
                                                          September 22, 2010 – The Office of the Chief
are addressed as efficiently and expeditiously as
                                                          Human Capital Officer (OCHCO) is working
possible. Listed below are the audit reports over 6
                                                          in collaboration with the Offices of
months old that were issued before the beginning
                                                          Management and General Counsel to evaluate
of the reporting period and for which no
                                                          and examine the findings in this report.
management decision had been made by the end
                                                          OCHCO will complete the investigation and
of the reporting period. The reason a
                                                          report by June 30, 2011.
management decision had not been made and the
estimated date for achieving management decision
is described below.
                                                       Prior Significant
   Management Audit                                    Recommendations
                                                       Not Implemented
   IG-0753: Recovery Costs for the Proprietary Use
   of the Advanced Photon Source, January 11,          As of March 31, 2011, closure actions on
   2007 – The management decision has been             recommendations in 37 OIG reports had not
   signed by Office of Science and is currently in     been fully implemented within 12 months
   the review and concurrence process. We              from the date of report issuance. The OIG is
   anticipate final approval by May 2011.              committed to working with management to
                                                       expeditiously address the management decision
   IG-0831: The Office of Science’s Management of      and corrective action process, recognizing that
   Information Technology Resources, November 20,      certain initiatives will require long-term,
   2009 – The finalization of the management           sustained, and concerted efforts. The Department
   decision is pending the resolution of complex       has closed 127 recommendations in the past
   cost allocation issues and coordination with        6 months. Management updates the
   senior Departmental leadership. This should         Departmental Audit Report Tracking System on a
   occur by September 30, 2011.                        quarterly basis, most recently in March 31, 2011.
                                                       Information on the status of any report
   IG-0835: The Department of Energy’s                 recommendation can be obtained through the
   Opportunity for Energy Savings Through              OIG’s Office of Audits and Inspections.
   Improved Management of Facility Lighting, July
   1, 2010 – The Department of Energy, in
   support of the Department’s implementation
   of E.O. 13514, "Federal Leadership in
   Environmental, Energy, and Economic
   Performance", established a Strategic



 40    OFFICE OF INSPECTOR GENERAL
                                                                SEMIANNUAL
                                                                REPORT TO CONGRESS




                          Summary of Investigative Activities
                                           October 1, 2010 – March 31, 2011
  Cases open as of October 1, 2010                                                                                                        239

  Cases opened during period                                                                                                               76

  Cases closed during period                                                                                                               71

  Multi-Agency Task Force Cases Opened                                                                                                     30

  Qui Tam investigations opened                                                                                                             1

           Total Open Qui Tam investigations as of March 31, 2011                                                                          15

  Cases currently open as of March 31, 2011                                                                                               244

  IMPACT OF INVESTIGATIONS:

           Administrative discipline and other management actions                                                                          60

           Recommendations to management for positive change and other actions                                                             44

           Suspensions/Debarments                                                                                                          45

           Accepted for prosecution*                                                                                                       14

           Indictments                                                                                                                     11

           Criminal convictions                                                                                                            14

           Pre-trial diversions                                                                                                             5

           Civil actions                                                                                                                    3

  TOTAL DOLLAR IMPACT**
  (Fines, settlements, recoveries)                                                                                                 $54,800,591

*Some of the investigations accepted during the 6-month period were referred for prosecution during a previous reporting period.
**Some of the money collected was the result of task force investigations.




                                                                                 OCTOBER 1, 2010 – MARCH 31, 2011                          41
                                                SEMIANNUAL
                                                REPORT TO CONGRESS




                   Summary of Investigative Activities
                                             HOTLINE ACTIVITY
                               October 1, 2010 – March 31, 2011
Total Hotline calls, emails, letters, and other complaints (contacts)                          2,749

Hotline contacts resolved immediately or redirected                                            2,465

Hotline contacts predicated for evaluation                                                      284

Hotline predications open at the end of previous reporting period                                20

Total Hotline predications processed this reporting period:                                     304

Hotline predications open at the end of the reporting period                                     17




                   Summary of
 Recovery Act Section 1553 Retaliation Complaints
                               October 1, 2010 – March 31, 2011

Recovery Act Whistleblower Retaliation Complaints received                                        9

Accepted Complaints carried over from prior period(s)                                             8

Disposition of Whistleblower Retaliation Complaints:

   Reports issued                                                                                 1

   Complaints Dismissed:
        ●   Elected another forum                                                                 1
        ●   Complaints withdrawn                                                                  1
        ●   Upon receipt of Complaint, determined not related to covered funds at the outset      4
        ●   After investigation, determined not related to covered funds after investigation      1

Open Complaints at the end of the reporting period                                                9




Recovery Act Complaints that received extensions                                                  6




42    OFFICE OF INSPECTOR GENERAL
                                                            SEMIANNUAL
                                                           REPORT TO CONGRESS




                                                      Peer Reviews
                                       October 1, 2010 – March 31, 2011
                          Results of Reviews Conducted by DOE/OIG:
                                                Office of Audits and Inspections
   Date of Recent
  Peer Reviews (s)                           Reviewed OIG                        Outstanding Recommendations

          N/A



                          Results of Reviews Conducted by DOE/OIG:
                                                Office of Audits and Inspections
   Date of Recent
  Peer Reviews (s)                           Reviewed OIG                        Outstanding Recommendations

       12/2010                      General Services Administration                           None
There are no outstanding recommendations from any previous peer reviews.



                        Results of Reviews Conducted by Other OIGs:
                                                Office of Audits and Inspections
   Date of                                                Requirements
  Recent Peer                 Reviewing                    For Review                       Outstanding
  Reviews (s)                    OIG                       Frequency                    Recommendations/Link

  03/2010                    Social Security                At least once            No outstanding recommendations
                             Administration                 every 3 years
                                                                                   http://www.ig.energy.gov/documents/
                                                                                        DOE_Peer_Review_Ltr-Audit.pdf




                        Results of Reviews Conducted by Other OIGs:
                                                       Office of Investigations
   Date of                                                Requirements
  Recent Peer                 Reviewing                    For Review                       Outstanding
  Reviews (s)                    OIG                       Frequency                    Recommendations/Link

    09/2008                  Small Business                 At least once            No outstanding recommendations
                             Administration                 every 3 years
                                                                                   http://www.ig.energy.gov/documents/
                                                                                       DOE_Peer_Review-2008_INV.pdf




                                                                            OCTOBER 1, 2010 – MARCH 31, 2011          43
                                      SEMIANNUAL
                                      REPORT TO CONGRESS




Feedback Sheet

The contents of the March 2011 Semiannual Report to Congress comply with the requirements
of the Inspector General Act of 1978, as amended. If you have any suggestions for making
the report more responsive, please complete this feedback sheet and return it to:

      United States Department of Energy
      Office of Inspector General (IG-10)
      1000 Independence Avenue, SW
      Washington, D.C. 20585

      ATTN: Douglas Gillam




Name: ____________________________________________________________________________


Daytime Telephone Number: _____________________________________________________


Comments/Suggestions/Feedback:




For media inquiries, please dial (202) 253-2162 for assistance.


 44   OFFICE OF INSPECTOR GENERAL
This page intentionally left blank.
  U.S. Department of Energy
           Office of Inspector General

    Call the HOTLINE if you suspect:
■ Fraud,
■ Waste,
■ Abuse,
■ Mismanagement by a DOE Employee, Contractor, or Grant
  Recipient; or have a
■ Whistleblower Retaliation Complaint related to American
  Reinvestment and Recovery Act funds



                   Call
     1-800-541-1625 or (202) 586-4073

  Additional information on the OIG and reports can be found at
                      www.ig.energy.gov




                 U.S. Department of Energy
                 1000 Independence Avenue, S. W.
                     Washington, DC 20585
